  Department of Health and Human Services
                     OFFICE OF 

                INSPECTOR GENERAL 





        PENNSYLVANIA COMPLIED 

  WITH THE REQUIREMENTS OF THE 

AFFORDABLE CARE ACT IN ITS REVIEW 

OF CASES OF CREDIBLE ALLEGATIONS 

               OF MEDICAID FRAUD 




    Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                             Public.Af(airs@oig. hhs.gov. 





                                                    Stephen Virbitsky 

                                                 Regional Inspector General 

                                                     for Audit Services 


                                                          June 2014 

                                                        A-03-14-00202 

                         Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities .
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
    Pennsylvania complied with the requirements ofthe Affordable Care Act in its review of
    cases ofcredible allegations ofMedicaid fraud.

                                                INTRODUCTION 


WHY WE DID THIS REVIEW 


The Affordable Care Act 1 requires States to suspend Medicaid payments to providers when they
receive a credible allegation that the pro viders have submitted fraudulent claims. This review of
Pennsylvania' s adjudication of such allegations is part of the Office oflnspector General's
oversight of the Affordable Care Act.

OBJECTIVE

Our objective was to determine whether Pennsylvania' s Department of Public Welfare (State
agency) complied with the requirements of the Affordable Care Act when it received a credible
allegation of fraud by its Medicaid providers.

BACKGROUND

Requirements for Cases With Credible Allegations of Fraud

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities (Title XIX of the Social Security Act (the Act)). The Affordable Care Act
amended the Act to strengthen payment safeguards over potentially fraudulent claims. Under the
Act, States that do not suspend payments to providers when investigation of a credible allegation
of fraud is pending are not eligible for Federal matching funds for payments to those providers
unless the State shows that it has good cause not to suspend such payment. 2 A State may find
that good cause not to suspend payments exists if, for example, law enforcement officials request
that a payment suspension not be imposed or if other remedies more effectively or quickly
protect Medicaid funds. 3

Federal regulations, amended effective March 25 , 2011, require the State agency to suspend all
Medicaid payments to a provider when it determines that there is a credible allegation of fraud
(42 CFR § 455.23). This payment suspension is temporary and continues until (1) authorities
discern that there is insufficient evidence of fraud upon which to base a legal action or (2) legal
proceedings related to alle ged fraud are completed. The regulations also require the State agency


1
 The Patient Protection and Affo rdable Care Act, P.L. 111 -148 (Mar. 23, 2010), as amended by the Health Care and
Education Reconciliation Act of 201 0, P .L. 111-152 (Mar. 30 , 201 0), collectively known as the Affordable Care
Act.
2
 Section 1903(i)(2) of the Act, as amended by section 6402(h)(2) of the Affordable Care Act. States also do not
suspend payments for emergency item s or se rvices.
3
    A description of "good cause" is provided at 42 CFR § 455.23 (e).


Pennsylvania Complied With the Affordable Care A ct f or Adjudicating Allegations of Fraud (A -03-14-00202)       I
to refer credible allegations of fraud to either a Medicaid Fraud Control Unit or an appropriate
law enforcement agency in States without such a unit.

A Medicaid Fraud Control Unit must be a single identifiable entity of State government, distinct
from the State agency, and it must enter into a formal agreement with the State agency that
describes the relationship between the Medicaid Fraud Control Unit and the State agency
(42 CFR § 1007). This agreement must include the responsibilities for addressing credible
allegations of fraud.

Pennsylvania's Medicaid Payment Safeguards

In Pennsylvania, the Bureau of Program Integrity (Program Integrity) and the Medicaid Fraud
Control Section (Fraud Control Section) safeguard Medicaid payments. Within the State agency,
Program Integrity is primarily composed of medical professionals, particularly registered nurses .
Program Integrity is responsible for preventing, detecting, deterring, and conecting fraud, abuse,
and wasteful practices by providers of Medicaid services, including managed care organizations.
Program Integrity may apply administrative sanctions for abuse or wasteful practices but must
refer cases of potential fraud to the Fraud Control Section. In Pennsylvania, the Fraud Control
Section is the Medicaid Fraud Control Unit.

 Within the Pennsylvania Office of Attorney General, the Fraud Control Section investigates
fraud and patient abuse and neglect by Medicaid providers and prosecutes it under State law.
Effective November 2001 and continuing throughout our audit period, Program Integrity and the
Fraud Control Section had an agreement that required Program Integrity to refer cases of
potential fraud to the Fraud Control Section. This agreement was revised in December 2013 to
incorporate Affordable Care Act requirements .

Prior Centers for Medicare & Medicaid Services Review

In May 2012, CMS issued the Pennsylvania Comprehensive Program Integrity Review: Final
Report for State fiscal years 2007-2008 through 2010-2011. Among its findings, CMS
identified 24 credible allegations of fraud after March 25, 2011, for which Program Integrity did
not suspend payments or identify a good cause exception not to suspend payments. The report
stated that, at the time of CMS 's review, Program Integrity had drafted policies and procedures
to addres s the Affordable Care Act requirements concerning credible allegations of fraud but had
not implemented them.

HOW WE CONDUCTED THIS REVIEW

Our review covered 245 cases involving credible allegations of fraud that Program Integrity
reviewed between March 25 , 2011, and June 30, 2013 . We did not include in our review 153
cases under investigation by the Fraud Control Section because the Fraud Control Section, rather
than Program Integrity , initi ated the cases .

We conducted this performance audit in accordance with generally accepted go vernment
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Pennsylvania complied With the Affordable Care Act f or Acijudicating Allegations ofFr aud (A -03-14-00202)   2
based on our audit objectives . We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains the
Federal and State requirements concerning the suspension of payments with a credible allegation
of fraud.

                                         RESULTS OF REVIEW

PENNSYLVANIA COMPLIED WITH FEDERAL AND STATE REQUIREMENTS
OF THE AFFORDABLE CARE ACT

The State agency complied with the requirements of the Affordable Care Act in its review of
cases for which there were credible allegations of fraud. Of the 245 cases for which it found
credible allegations of fraud by Medicaid providers, Program Integrity suspended payment in 2
cases. For the remaining 243 cases, Program Integrity provided good cause to not suspend
payment.

Of the 245 cases, 221 were allegations of credible fraud against personal care aides providing
services for the home health agencies that submitted the claims. The remaining 24 cases were
for non-home health services claims. According to Program Integrity officials, CMS said that
they are not required to suspend provider payments when an employee, rather than the provider,
is referred, but if there is a repeated pattern of allegations involving the same provider, Program
Integrity should consider looking at the provider.4 We concluded that the State agency had good
cause not to suspend payments in these cases.

All 245 cases were referred to the Fraud Control Section as required. The Fraud Control Section
did not recover funds in 151 cases because of insufficient evidence. Seventy cases resulted in an
arrest, conviction, fine , or penalty, and 1 case was still under investigation. The case files did not
include information about Fraud Control's disposition of23 cases.

In addition, Program Integrity implemented its policies and procedures to address the Affordable
Care Act requirements concerning allegations of credible fraud. As a result, we have no
recommendations.

                                            OTHER MATTERS

The State agency does not have a mechanism for identifying and barring an employee who is
fraudulently claiming services through a provider. According to Program Integrity, the State
agency's Medicaid Management Information System (MMIS) 5 only identifies a home health
4
  Laurie Rock, Director, Program Integrity, "Sample note in cas e tracking ... ,"internal em ail message, 

September 19, 2011. The attached email string specified that Program Integrity would use the good cause exception 

" [o]ther available remedies impl emented by the State more effectively or quickl y protect Medicaid funds" 

(42 CFR § 455.23(e)(2)). 

5
 The MMIS is an integrated group of procedures and computer processing operations (subs ystems) that, among 

other things, processes Medicaid claims. 



Pennsylvania complied With the Affordable Care Act for Adjudicating Allegations ofFraud (A-03-14 -00202)         3
agency by a valid provider identification number. The MMIS does not identify personal care
aides employed by home health agencies. Because the MMIS cannot identify personal care
aides, personal care aides who fraudulently claim services through a provider may escape
oversight.

Personal care aide improprieties accounted for 90 percent of the cases that we reviewed. These
221 cases pertained to allegations against personal care aides employed by home health agencies.
In 163 ofthese cases, officials of the home health agencies themselves reported the allegations to
Program Integrity. Program Integrity officials expressed concern that, while MMIS currently
identifies the provider who submits the claim, it does not identify the personal care aide who
performed the services. Identifying the aide might eliminate payments for improper claims
through pre-payment algorithms.




Pennsylvania complied With the Affordable Care Act for Adjudicating Allegations ofFraud (A-03-14-00202)   4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE

Our review covered 245 cases involving credible allegations of fraud reviewed by Program
Integrity between March 25, 2011, and June 30, 2013. We did not include in this review 153
cases initiated by the Fraud Control Section. For these cases, the Fraud Control Section had
notified Program Integrity not to take any action against the providers it was investigating if
Program Integrity received a credible allegation of fraud.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective. We limited
our review to determining whether Pennsylvania complied with the requirements of the
Affordable Care Act when it received a credible allegation of fraud against its Medicaid
providers.

We conducted our audit from December 2013 to March 2014 and performed our fieldwork at
Program Integrity's office in Harrisburg, Pennsylvania.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal statutes, regulations, and guidance;

    • 	 held discussions with Program Integrity officials and reviewed applicable Program
        Integrity policies and procedures to gain an understanding of its practices when reviewing
        credible allegations of fraud;

    • 	 reviewed 245 case files containing credible allegations of fraud that were processed by
        Program Integrity between March 25, 2011, and June 30, 2013; and

    • 	 discussed our findings with State officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Pennsylvania complied With the Affordable Care Act for Adjudicating Allegations ofFraud (A-03-14 -00202)   5
                     APPENDIX B: FEDERAL AND STATE REQUIREMENTS 


FEDERAL REQUIREMENTS 


Section 6402(h)(2) ofthe Affordable Care Act amended section 1903(i)(2) ofthe Act to require
States to suspend payments if the State determined that there was a credible allegation of fraud
concerning a provider's Medicaid claims.

CMS amended its implementing regulations (42 CFR § 455.23) effective March 25,2011, to
comply with the provision of the Affordable Care Act. 6 The amended regulations include
provisions relating to suspension of payments.

Section 455.23(a), "Basis for suspension," states:

           (1) The State Medicaid agency must suspend all Medicaid payments to a provider
           after the agency determines there is a credible allegation of fraud for which an
           investigation is pending under the Medicaid program against an individual or
           entity unless the agency has good cause to not suspend payments or to suspend
           payment only in part.

           (2) The State Medicaid agency may suspend payments without first notifying the
           provider of its intention to suspend such payments.

           (3) A provider may request, and must be granted, administrative review where
           State law so requires.

Section 455.23(c), "Duration of suspension," states:

           (1) All suspension of payment actions under this section will be temporary and
           will not continue after either of the following:

               (i) The agency or the prosecuting authorities determine that there is
               insufficient evidence of fraud by the provider.

               (ii) Legal proceedings related to the provider's alleged fraud are completed.

Section 455.23(d), "Referrals to the Medicaid fraud control unit," states:

           (1) Whenever a State Medicaid agency investigation leads to the initiation of a
           payment suspension in whole or part, the State Medicaid agency must make a
           fraud referral to either of the following:

               (i) To a Medicaid fraud control unit established and certified under part 1007
               of this title; or


6
    76 Fed. Reg. 5862, 5928 (Feb. 2, 2011).


Pennsylvania complied With the Affordable Care Act for Adjudicating Allegations ofFraud (A-03-14 -00202)   6
               (ii) In States with no certified Medicaid fraud control unit, to an appropriate
               law enforcement agency.

Section 455.23(e), "Good cause not to suspend payments," states:

           A State may find that good cause exists not to suspend payments, or not to
           continue a payment suspension previously imposed, to an individual or entity
           against which there is an investigation of a credible allegation of fraud if any of
           the following are applicable:

           (1) Law enforcement officials have specifically requested that a payment
           suspension not be imposed because such a payment suspension may compromise
           or jeopardize an investigation.

           (2) Other available remedies implemented by the State more effectively or
           quickly protect Medicaid funds.

           (3) The State determines, based upon the submission of written evidence by the
           individual or entity that is the subject of the payment suspension, that the
           suspension should be removed.

           (4) Beneficiary access to items or services would be jeopardized by a payment
           suspension because of either of the following:

               (i) An individual or entity is the sole community physician or the sole source
               of essential specialized services in a community.

               (ii) The individual or entity serves a large number of beneficiaries within a
               [Health Resources and Services AdministrationJ-designated medically
               underserved area.

           (5) Law enforcement declines to certify that a matter continues to be under
           investigation per the requirements of paragraph (d)(3) of this section.

           (6) The State determines that payment suspension is not in the best interests of the
           Medicaid program.

On March 25, 2011, the CMS Center for Program Integrity and the CMS Center for Medicaid,
CHIP, 7 and Survey & Certification jointly issued an Informational Bulletin (CPI-B 11-04) to
provide additional guidance to States concerning the State's obligation to suspend payments
when there is a credible allegation of fraud. In that document, CMS clarified the definition for a
credible allegation of fraud in the Frequently Answered Questions section, as follows:

           Generally, a "credible allegation of fraud" may be an allegation that has been
           verified by a State and that has indicia of reliability that comes from any source.
7
    Children's Health Insurance Program.


Pennsylvania complied With the Affordable Care Act for Adjudicating Allegations ofFraud (A-03-14 -00202)   7
        Further, CMS recognizes that different States may have different considerations
        in determining what may be a "credible allegation of fraud." Accordingly, CMS
        believes States should have the flexibility to determine what constitutes a
        "credible allegation of fraud" consistent with individual State law.

The Informational Bulletin also states in the Frequently Answered Questions section that once a
State verifies an allegation of fraud, it is required to refer the suspected fraud to its Medicaid
Fraud Control Unit or other law enforcement agency for further investigation.

STATE REQUIREMENTS

In May 2012, the State agency amended its policy and procedures to address the requirements of
the Affordable Care Act for determining whether there is a credible allegation of fraud:

        • 	 The Program Integrity Case Coordinator will conduct a preliminary investigation
            including, but not limited to, review of past files, claims history, and supporting
            documentation to assess if the credibility of the fraud allegation is sufficient to trigger
            a payment suspension ("Procedure 2").

        • 	 Program Integrity will then discuss its preliminary findings with the Department of
            Public Welfare's Office of General Counsel to determine whether a credible
            allegation of fraud exists against a provider and, as appropriate, will consult with the
            Office of Attorney General Medicaid Fraud Control Section to determine the
            credibility of allegations ("Procedure 3").

After its consultations, Program Integrity considers allegations credible "when they have indicia
of reliability and [Program Integrity] has reviewed all allegations, facts and evidence carefully
and acts judiciously on a case-by-case basis" ("Definitions").

In accordance with the Affordable Care Act, the revised policy states that the State agency "must
suspend all Medicaid payments to a provider after a determination of a credible allegation of
fraud for which an investigation is pending under the [Medicaid] Program against an individual
or entity unless [State agency] has good cause to not suspend payments or to suspend payment
only in part" ("Policy Statement").

The policy and procedures also list the good cause exceptions for not suspending payments when
there is a credible allegation of fraud. These exceptions mirror those found in the Federal
regulations. The first good cause not to suspend payments exists when Fraud Control or other
law enforcement officials specifically request that Program Integrity not suspend provider
payments because "such a payment suspension may compromise or jeopardize an
investigation ... " (Procedure 4(a)).




Pennsylvania complied With th e Affordable Care Act for Adjudicating Allegations ofFraud (A-03-14 -00202)   8
